<html>
<title> - A CLOSER LOOK AT CUBA AND ITS RECENT HISTORY OF PROLIFERATION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
     A CLOSER LOOK AT CUBA AND ITS RECENT HISTORY OF PROLIFERATION 

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 26, 2013

                               __________

                           Serial No. 113-79

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

82-946 PDF                       WASHINGTON : 2013 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
   Office Internet: bookstore.gpo.gov Phone: toll free (800) 512-1800; 
          DC area (202) 512-1800 Fax: (202) 512-214 Mail: Stop IDCC, 
                      Washington, DC 20402-0001




                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida                THEODORE E. DEUTCH, Florida
TREY RADEL, Florida                  ALAN GRAYSON, Florida



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Hugh Griffiths, head, Countering Illicit Trafficking--
  Mechanism Assessment Projects, Stockholm International Peace 
  Research Institute (appering via videoconference)..............     6
Ms. Maria C. Werlau, executive director, Cuba Archive............    17
Ms. Mary Beth Nikitin, specialist in nonproliferation, 
  Congressional Research Service.................................    25

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Hugh Griffiths: Prepared statement...........................    10
Ms. Maria C. Werlau: Prepared statement..........................    19
Ms. Mary Beth Nikitin: Prepared statement........................    27

                                APPENDIX

Hearing notice...................................................    38
Hearing minutes..................................................    39
The Honorable Matt Salmon, a Representative in Congress from the 
  State of Arizona, and chairman, Subcommittee on the Western 
  Hemisphere: Material submitted for the record..................    40


     A CLOSER LOOK AT CUBA AND ITS RECENT HISTORY OF PROLIFERATION

                              ----------                              


                      THURSDAY, SEPTEMBER 26, 2013

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2 o'clock 
p.m., in room 2172 Rayburn House Office Building, Hon. Matt 
Salmon (chairman of the subcommittee) presiding.
    Mr. Salmon. A quorum being present, the subcommittee will 
come to order.
    I'll start by recognizing myself and ranking member to 
present our opening statements, and without objection the 
members of the subcommittee will be recognized to present their 
opening remarks. I ask that they do so in a timely manner to 
allocate time for all present members.
    Now I yield myself time to present my opening statement. 
Earlier this summer on July 16th the Panamanian Government 
discovered and detained the North Korean flagged Chong Chon 
Gang cargo vessel travelling from Cuba.
    Found on board were 25 cargo containers of Cuban weapons 
and other U.N.-sanctioned items bound for the rogue regime in 
North Korea.
    In anticipation of the U.N. Security Council Sanctions 
Committee, its impending report on the incident, I've convened 
this subcommittee today to investigate further Cuba's recent 
history of military proliferation and noncompliance with U.N. 
sanctions, and to review the options available to the 
subcommittee to attempt to hold Cuba accountable for their 
violations.
    The facts in this case are not in dispute. At the time of 
their discovery, the Cuban foreign ministry said that the 
tanker was carrying 10,000 pounds of sugar--excuse me, 10,000 
tons of sugar and 240 metric tons of ``obsolete defensive 
weapons'' including disassembled missiles, two MiG-21 jet 
fighters and two disassembled anti-aircraft missile complexes 
``to be repaired and returned to Cuba.''
    But here is what the Panamanian officials actually found 
hidden among the bags of Cuban sugar: Night vision equipment, 
small arms and light weapons ammunition, rocket-propelled 
grenades and artillery ammunition for anti-tank guns.
    This cargo is a clear violation of the U.N. sanctions 
imposed on North Korea after its series of nuclear bomb tests.
    This is a potentially groundbreaking case where a country 
in the Western Hemisphere is likely to be found in violation of 
the U.N. Security Council sanctions on weapons proliferation.
    Many experts believe, and the Castro regime itself has 
actually admitted, to the violation of international sanctions 
in this case. I am convinced that this case should and would be 
getting a lot more international attention if not for the daily 
and deadly news coming out of Syria and now the heinous Al 
Shabaab acts of terrorism at the mall in Nairobi, Kenya.
    The narrative that defenders of the Castro regime would 
like us to believe is that much of the weaponry was to be 
repaired and/or modernized and returned to Cuba, and that it is 
no longer involved in such illicit activities.
    But at least in this instance, it is undeniable that they 
got caught red handed in direct violation of the sanctions and 
they must be held accountable.
    This subcommittee has been told that knowing it is in 
violation of international sanctions the Castro regime has 
begun a full ``charm offensive'' at the U.N. to convince the 
Sanctions Committee that it should in fact be applauded for its 
compliance and cooperation in this case rather than punished 
and sanctioned for its international and intentional breach of 
the sanctions regime.
    Failure to hold the Cuban Government fully responsible will 
also be a slap in the face to our allies. If Cuba is allowed to 
get away with this, this time, it would send a terrible message 
to Panama, which put its resources and its reputation on the 
line to intercept this vessel.
    Even worse, other countries in the future might decide it 
simply isn't worth the cost and energy of pursuing similar 
violations to the benefit of rogue regimes in North Korea and 
Iran.
    Of further concern is that it appears that the Cuban 
military's rogue business activities are growing increasingly 
dangerous, yet current U.S. travel policy continues to feed the 
Cuban military's business interests.
    For example, U.S. travellers to Cuba stay almost 
exclusively at the Cuban military's five-star hotels. I believe 
that this policy should be halted and that remittances from the 
U.S. should not be allowed to further fuel the moribund Castro 
regime.
    If Cuba is not properly reprimanded in the strongest terms 
available, then it could very well embolden Venezuela and other 
ALBA states to find ways to help other rogue regimes.
    We know Venezuela has already been helping Iran skirt U.S. 
financial sanctions. Allowing Cuba to get away with violating 
international weapons sanctions would send a very dangerous 
message to the international community at large.
    I very much look forward to hearing from our expert 
witnesses today as we delve further into these questions and 
how this subcommittee can most effectively work to ensure 
international sanctions are upheld with meaningful consequences 
for any violations.
    I yield time to the gentleman from New Jersey, Mr. Sires.
    Mr. Sires. Thank you, Mr. Chairman.
    Good afternoon. Thank you to our witnesses for being here 
today. The last time advanced weapons were shipped to and from 
Cuba the world had come close to the brink of nuclear war than 
in any other time.
    It was October 1962 at the height of the Cuban Missile 
Crisis when the United States discovered that the Soviet Union 
was installing ballistic and tactical nuclear missiles in Cuba 
just 90 miles south of the United States' coast.
    Today, we know that Cuba has the capability to launch 
without Russian codes or consent and have even pleaded Moscow 
to launch weapons already on the island even after the 
withdrawal was initiated.
    President Kennedy thwarted a dangerous game of nuclear 
chess played by the Soviet and Cuban regimes. Now, nearly 51 
years later, we find Cuba has taken in a different partner in 
North Korea to partake in the illicit transfer of contraband, 
arms and weaponry.
    Staunch anti-Americanism, anti-democratic values and 
defiance of world order have isolated and strengthened a 
historically distant relationship between the two communist 
nations.
    On July 10th earlier this year Panamanian authorities 
seized a North Korean freighter declared to be carrying 10,000 
tons of sugar from Cuba, only to discover a hidden cargo of 
Soviet-made anti-missile system components, fighter jet parts 
and engines.
    In doing so, inspectors encountered a defiant 35-member 
North Korean crew and a captain who even attempted to take his 
own life to prevent inspection.
    Days later, the Cuban Government acknowledged the contents 
of the cargo as mere obsolete defensive weapons to be repaired 
and returned to Cuba, adding that the sugar was a humanitarian 
gift to North Korea.
    This was not the first transshipment of its kind and 
neither Cuba nor North Korea had any intent of disclosing their 
transgressions or contents of the illicit cargo.
    Further inspection has in fact revealed the cargo to 
include over 25 hidden containers, military vehicles and like-
new ammunitions and hardware in original cases.
    However, North Korea's involvement and the Cubans' 
declaration has only raised more questions than it has 
answered. If only for repairs then why did Cuba not ask other 
nations instead of breaking various U.N. Security Council's 
resolutions banning arms transfers especially to North Korea? 
With North Korea doing its best to refurbish its military 
hardware, it is more likely that the fighter jets were intended 
to stay in North Korea.
    At the same time a barter arrangement may have been reached 
to transfer some equipment to North Korea for repairs with 
sugar serving as payment.
    Without a doubt, the nature and contents of the seizure 
itself and the existence of a barter agreement reflect the dire 
economic conditions and level of desperation in both states.
    Nonetheless, irrespective of the purpose or intent, 
obsolete weaponry or not, the transfer of these items is a 
clear violation of the U.N. Council's resolutions--Security 
Council resolutions.
    Meanwhile, Panamanian authorities have recently declared 
that the preliminary U.N. Security Council report has 
determined Cuba's North Korea-bound arms cargo to be in 
violation of U.N. sanctions.
    However, that Cuba has by its own admission acknowledged 
its concealment and is presumably cooperating with the U.N. 
inspectors should be seen with great doubt. Cuba and North 
Korea starve their people of common dignity, freedom of speech 
and human rights.
    They have not abided by world norms and are unlikely to do 
so. The U.S., together with the U.N. Security Council, should 
enforce present sanctions against North Korea and be undeterred 
in punishing Cuba for violating them.
    Laws are not to be--that are not enforced and defended with 
lose value and respect. The U.S. and the U.N. should 
demonstrate that there are consequences to defying 
international laws.
    I look forward to hearing the panelists' comments.
    Mr. Salmon. Thank you.
    The Chair yields to the gentlewoman from Florida, Ms. Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    This weapons proliferation violation in our own hemisphere 
poses a direct threat to our national security interest.
    Allowing the Castros to go unaccountable sends a terrible 
message to allies like Panama, who risked their time and 
resources to stop this vessel, and also to Venezuela and other 
rogue regimes who seek to cooperate further with North Korea or 
Iran.
    We must not allow U.S. People to People travellers to stay 
at Cuba luxury resorts which are owned by the Cuban military, 
as you pointed out.
    Additionally, this administration must reinforce the 
already existing ban on visas for regime officials and their 
family members.
    Allowing Castro family members and regime officials to be 
issued travel visas to come here sends a message of impunity. 
It eliminates the dissuasive effect for repressors.
    This is a time for the administration to hold the Castro 
regime accountable for its actions, not a time to engage in 
normalization efforts with the regime.
    A U.S. citizen languishes in a Cuban jail. This 
international violation now comes to light and yet the U.S. 
sits across the table from the Cuban regime on postal service 
issues. Incredible.
    Both North Korea and Cuba were in clear violation of U.N. 
sanctions yet neither nation has suffered any consequences from 
this act.
    Thank you, Mr. Chairman, for the time.
    Mr. Salmon. Thank you.
    The Chair recognizes the gentleman from American Samoa, Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I want to thank you and our ranking member for calling this 
hearing. With Panama's recent interdiction of North Korea's 
ship, the Chong Chon Gang, many of the issues that have 
traditionally taken center stage in the Western Hemisphere 
suddenly become somewhat trivial.
    We are no longer just concerned with drug interdictions or 
trafficking, government corruption or democracy. We have now 
added, out of nowhere it seems, arms and proliferation the 
ongoing agenda.
    But did this exchange between Cuba and North Korea really 
come out of nowhere? Were there any warning signs? Was this an 
isolated incident?
    What about the intelligence that Panama received? The 
Panamanian authorities seized the vessel under suspicion of 
drugs aboard the ship.
    While the intelligence was wrong, it nonetheless led to the 
discovery of a very alarming situation here in the Western 
Hemisphere. I am concerned that there is much speculation and 
supposition surrounding this event.
    The truth is we just do not have the information we need to 
take a next step or even appreciate the implications that the 
situation will have on the United States, on our neighboring 
countries and on our government-to-government relationship 
within the region.
    I look forward to hearing from our witnesses and I want to 
personally offer my welcome to Ms. Nikitin and Ms. Werlau for 
their testimony.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    Does the gentleman from California, Mr. Rohrabacher, choose 
to make an opening statement?
    Mr. Rohrabacher. Just to thank you, Mr. Chairman, on 
holding this hearing. I think it's vitally important that the 
United States, while confronting serious challenges throughout 
the world, not lose sight of the fact that we have one of the 
world's longest lasting tin pot dictatorships right along--
right near our coast line.
    This regime is a disgrace and has held the people of Cuba 
back for so long. We need to again reaffirm that we are on the 
side of the people of Cuba and against their dictatorship.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    Pursuant to committee rule seven the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record.
    Without objection, the hearing record will remain open for 
7 days to allow statements, questions and extraneous materials 
for the record subject to the length limitation in the rules.
    Now I'd like to introduce the panel. First of all, we have 
on Skype Mr. Hugh Griffiths. He's the senior researcher and 
head of the Countering Illicit Drug Trafficking-Mechanism 
Assessment Projects at the Stockholm International Peace 
Research Institute.
    He's conducted a wide variety of investigation into arms 
trafficking via sea and air in Africa, the Middle East and 
Korean Peninsula working on behalf of a variety of United 
Nations, European Union and North American organizations, 
agencies and member states.
    He holds a Ph.D. research certificate and a Master's of 
philosophy in international political economy as well as a 
post-graduate degree in international relations and law from 
the University of Amsterdam.
    We also have Ms. Werlau. She is the executive director of 
Cuba Archive. This initiative seeks to advance human rights 
through research and scholarship.
    For years she has tracked Cuba's relationship with North 
Korea and other rogue states. Ms. Werlau holds a Bachelor's 
degree of science in foreign service from Georgetown University 
and a Master's degree in international affairs from Universidad 
de Chile.
    Ms. Nikitin--did I say that right? What is it, Nikitin? 
Nikitin. Is a specialist in nonproliferation in the Foreign 
Affairs Defense and Trade Division at the Congressional 
Research Service.
    Ms. Nikitin's research covers nuclear, biological and 
chemical weapons nonproliferation issues including nuclear 
security, nonproliferation, threat reduction assistance and 
nuclear energy cooperation.
    She earned a B.A. with majors in government and French at 
Dartmouth College and a Master's in international policy 
studies and a certificate in nonproliferation studies from 
Monterey Institute of International Studies.
    Let's begin. Mr. Griffiths, you're recognized.

   STATEMENT OF MR. HUGH GRIFFITHS, HEAD, COUNTERING ILLICIT 
     TRAFFICKING--MECHANISM ASSESSMENT PROJECTS, STOCKHOLM 
     INTERNATIONAL PEACE RESEARCH INSTITUTE (APPERING VIA 
                        VIDEOCONFERENCE)

    Mr. Griffiths. Thank you very much.
    Mr. Chairman, ranking member and members of the committee, 
thanks for this invitation to testify today.
    I've been asked to present on SIPRI's investigation and 
analysis of the attempted illicit transfer associated with the 
North Korean vessel, the Chong Chon Gang, that was interdicted 
by the Panamanian authorities transporting arms from Cuba in 
July 2013.
    Given your geographic focus on the Western Hemisphere, I 
will today mainly address Cuba's role in this violation of 
United Nations sanctions as well as Cuba's links with North 
Korea and in particular earlier voyages by North Korean vessels 
to Cuba in the period 2006 to 2013 that I believe merit further 
investigation.
    The focus here will thus be on maritime trafficking. Before 
addressing these matters, I would like to say a few words 
regarding the work of U.S. Government-related entities in the 
fields of counter proliferation, export control, as well as 
maritime and airborne-related trafficking.
    The SIPRI research publications for which I have been 
responsible acknowledge the cutting edge science, unique 
expertise and resources of a wide variety of U.S. Government 
departments, agencies and related entities charged with counter 
proliferation and export control as well as maritime 
trafficking of military equipment, dual use goods for weapons 
of mass destruction purposes and narcotics.
    Over the years, during the course of field investigations 
and research around the world, I've had the privilege of 
interacting with dedicated officials and experts from the U.S. 
Departments of State, Defense, Justice, Treasury as well as 
members of the U.S. intelligence community.
    The breadth and depth of their expertise and resources are 
unparalleled as are their abilities to build capacity amongst 
U.S. allies and partner states in the fields of counter 
proliferation, export control and counter trafficking.
    As Federal lawmakers and budget approvers, I'd like to say 
to you today that U.S. engagement at the international level on 
these issues is really critical in terms of mitigating the 
associated risks.
    Both the dedicated individuals and programs that I've had 
the opportunity to interact with over the past 10 years deserve 
your continuing support because they do a good job on these 
critical issues of national and international security concern.
    Put simply, no other country has the expertise and 
resources to undertake this work in the same way. I should make 
full disclosure and note that in 2013 the projects at SIPRI 
that I am responsible for received a grant from the Department 
of State's Export Control and Related Border Security Program, 
EXBS, whose mandate covers some of the areas I've mentioned 
above.
    But to sum up and introduce the rest of this testimony, I 
believe the Chong Chon Gang case serves as the most recent open 
source example to highlight the critical role played in counter 
proliferation and export control by U.S. Government 
departments, agencies and programs funded from the Federal 
budget.
    As Members of Congress may be aware, following the Chong 
Chon Gang seizure in July of this year, open source media 
reports quoted unnamed U.S. officials as saying that the 
Panamanian authorities were tipped off by their U.S. 
counterparts as to the illicit nature of the vessel's cargo.
    In other words, it was a U.S. tip off that prompted the 
interdiction by Panama. It should also be noted that Panama is 
a U.S. partner thanks to longstanding bilateral counter 
trafficking activities as well as through multilateral export 
control and customs initiatives such as the United Nations 
Office of Drugs and Crime (UNODC) Container Control Program 
(CCP) which is also supported by the U.S. Department of State.
    Set against this background of U.S. expertise, partnership 
and information sharing that you in Congress can be rightly 
proud of authorizing the budgets for, I'd now turn to some of 
the specifics of the Chong Chon Gang and the Cuban role.
    It's already been covered by Members of Congress so I won't 
go there again except to say that the evidence and testimony 
provided today make clear that contrary to both the North 
Korean shipping declaration, which I provided you a copy of, 
and Cuban Government statements, which were highlighted earlier 
by Members of Congress, the shipment was without doubt a 
violation of U.N. sanctions on North Korea.
    The statements issued by the Cuban authorities following 
the seizure are misleading to say the least because of the 
other cargo of miliary equipment that the ship was transporting 
which they failed to mention.
    Within the context of Cuba-related North Korean vessel 
movements, I think it is important to note that prior to the 
seizure of the Chong Chon Gang there were a number of other 
North Korean vessels calling at Cuban ports.
    Some of these voyages may be assessed as carrying a high 
risk of proliferation concern on the basis of the vessels' 
flag, age, past registration, ownership patents, its safety 
record and, most importantly, various voyage routing anomalies.
    A number of these vessels were bulk carriers that may have 
contained the same hidden compartments or hold space that the 
SIPRI investigation highlighted were found aboard the Chong 
Chon Gang.
    A number of these other vessels also switch off their 
automatic--their AIS radar transponders and this is a common 
risk indicator for various forms of maritime trafficking.
    A number of these vessels were ultimately owned by shell 
companies behind which stand the same company that owned the 
Chong Chon Gang. Given the illicit cargo and the concealed hold 
space found aboard the Chong Chon Gang, it is my opinion that 
these earlier North Korean voyages to Cuba would be worthy of 
investigation.
    But what Congress is asking is what has to happen now and 
what has to happen now is really full disclosure and access to 
Cuba for the United Nations Panel of Experts attached to the 
Sanctions Committee responsible for DPRK sanctions.
    As a first step, the Cuban authorities will need to invite 
the United Nations Panel of Experts charged with investigating 
violations of U.N. sanctions on North Korea to Cuba. The Cuban 
authorities would have to provide the U.N. Panel of Experts 
with full disclosure on all aspects of the agreements, 
contracts, background, loading and transfer of the illicit 
Cuban-origin military equipment that was seized aboard the 
Chong Chon Gang.
    Once the Panel of Experts were satisfied that the terms of 
full disclosure for this voyage had been met, they would have a 
clearer understanding of the Cuban personalities, ministries 
and agencies involved in that illicit transfer.
    Secondly, for the purposes of full disclosure relating to 
the other North Korean vessel voyages to Cuba, the Cuban 
authorities would have to grant the United Nations Panel of 
Experts access to all port authority documentation and all 
documentation relating to the voyages themselves, any port-
state control safety inspections that may have been partially 
carried out but not filed with the respective port-state 
control memorandum of understanding, the MOU.
    The Cuban authorities would have to provide access to the 
relevant customs officials and dock workers for interview 
purposes as well.
    If the Cuban authorities are unwilling to make this kind of 
full disclosure and provide the invitation to visit Cuba and to 
interview officials, then the earlier misleading statements 
made on 16th July by the Cuban Ministry of Foreign Affairs will 
appear to be more than a one-off.
    It will appear as if they have something to hide on a 
systematic basis. In concluding this testimony, I should say 
that on the basis of our research we believe that the Chong 
Chon Gang incident is unusual not because the vessel was 
transporting concealed illicit commodities.
    The Chong Chon Gang incident was unusual because it 
involved an actual seizure and confiscation of illicit 
commodities. It may seem strange to Members of Congress that a 
North Korean vessel with a very large North Korean flag painted 
on the ship's funnel could expect to sail in and out of the 
Caribbean Sea, which is effectively America's back yard, the 
most intensely surveilled waters in terms of counter narcotics 
trafficking anywhere in the world and take delivery of an 
illicit arms shipment from Cuba.
    Such a gamble certainly appears foolhardy with the benefit 
of hindsight but it may not have been seen as a great risk if 
such shipments were undertaken in the past without problems.
    There were certainly less obtrusive options open to the 
North Koreans. They could have used a variety of other North 
Korean controlled ships that are registered under other flags 
of convenience formally owned by offshore entities registered 
in east or southeast Asia.
    And compared with the Chong Chon Gang these high-risk 
proliferation vessels are much more difficult to identify and 
the majority of them do not sail under the flags of states that 
have signed boarding agreements with the U.S. as part of the 
Proliferation Security Initiative, PSI.
    So to summarize, I believe that the Chong Chon Gang seizure 
highlights a number of points. The first is the need for full 
disclosure by the Cuban authorities to the U.N. Panel of 
Experts on North Korea on both this shipment and other North 
Korean-related voyages of concern to Cuba in recent years.
    The second point is that the Chong Chon Gang seizure 
demonstrates the continuing utility of building the capacities 
of choke point ports and nations such as Panama as well as 
other partner states and open registries that occupy strategic 
positions along potential proliferation supply chains.
    In these activities the United States is well placed to 
assist partners and allies around the world to counter such 
acts of proliferation.
    Thank you very much.
    [The prepared statement of Mr. Griffiths follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                              ----------                              

    Mr. Salmon. Thank you.
    The Chair now recognizes Ms. Werlau.

  STATEMENT OF MS. MARIA C. WERLAU, EXECUTIVE DIRECTOR, CUBA 
                            ARCHIVE

    Ms. Werlau. Good afternoon. Can you hear me? Good 
afternoon, Mr. Chairman, ranking member and members of the 
subcommittee.
    Thank you for the opportunity to offer you this testimony. 
My written statement is much more extensive and I respectfully 
ask that it be considered for the record.
    As we have been discussing, on July 15th Panama discovered 
the North Korean flagship with concealed weapons from Cuba. To 
those familiar with the history and true nature of the Cuban 
regime, the only surprise is that it got caught and that it was 
widely reported by news organizations.
    In 2003, David Kay, special advisor on Iraqi WMD search, 
said on national TV that remarkable evidence had been found in 
Iraq of North Korean missiles going to Cuba. Nobody seemed to 
take notice, at least publicly.
    North Korea and Cuba, it turns out, have much in common. 
Both regimes have been ruled for decades by military 
dictatorships under the helm of respective families controlling 
a vast repressive apparatus.
    Both pay homage to orthodox communism, at least in theory 
and when convenient. Both have terrified their people into 
submission, flaunted basic rules and standards of civilized 
nations and committed crimes against humanity.
    Both work actively against our interest and threaten our 
security. Their command economies are both technically 
bankrupt, spreading misery amongst the people yet allowing 
privileges to the ruling elite.
    Both have perfected the art of milking the international 
community for concessions, massive aid and subsidies, favorable 
terms of trade and investment and loans they never pay.
    Their allies are fellow rogue regimes and together they 
have formed what in their own words is a joint front against 
the common enemy, the United States.
    My written testimony offers considerable detail of evident 
ties between the two. Since 2001, official visits, especially 
of a military nature, mutual praise and reiterations of the 
strong fraternal ties have visibly multiplied. Two visits stand 
out.
    In November 2004, several North Korean senior generals 
arrived in Cuba and met with then-President Fidel Castro and 
Defense Minister Raul Castro.
    They spent several days evaluating Cuba's military 
infrastructure and touring manufacturing and assembly 
facilities of its defense industry conglomerate. Cuba confirmed 
a strengthening military cooperation and pledged to fight 
shoulder to shoulder with the Korean army and people.
    Another unusual visit concluded around 10 days--less 
actually--than before the ship was seized by Panama. The 
general's staff of North Korea's army, who had already been to 
Cuba, led a high-ranking military delegation to, as he 
proclaimed, meet colleagues in the same trench.
    They stayed several days, met with top military brass 
including President General Raul Castro, toured military 
installations and inspected military equipment.
    According to Cuba's state media, the highly fraternal 
exchange included detailed information on combat readiness, 
staff training and the use of the technology and weaponry.
    On August 25th, 38 days after the ship was stopped in 
Panama, the head of Cuba's air force, a division general said 
to have been in charge of the shipment, was reported by state 
media killed in a car accident. It was a Sunday morning and 
details such as location, circumstances or witnesses were not 
provided.
    He was immediately cremated and buried 2 days later. Five 
days later, reports surfaced that the four-star North Korean 
general who had just returned from Cuba had been removed, his 
fate unknown. Two timely and convenient coincidences.
    What explains the arms trafficking? In my view, these 
visits and others in between point to deliberate and concerted 
efforts.
    As for North Korea, our Government confirmed last May that 
it defies sanctions through established channels to supply its 
missile and nuclear programs. Regarding Cuba, it is entirely 
feasible that the Castro regime would risk getting caught.
    First, it is in desperate need of hard currency to keep the 
dictatorship in power and rescuing its faltering economy. The 
Venezuelan economy is in dire straits, facing a huge liquidity 
crisis and its massive subsidies to Cuba are probably 
declining.
    Second, the Cuban regime is emboldened by the impunity the 
international system has afforded even its worse crimes. For 
Cuba and North Korea, nothing is too outrageous.
    There's a saying in Spanish (foreign language spoken)--God 
creates them and they find each other.
    Thank you.
    [The prepared statement of Ms. Werlau follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  ----------                              

    Mr. Salmon. Thank you.
    Ms. Nikitin.

       STATEMENT OF MS. MARY BETH NIKITIN, SPECIALIST IN 
        NONPROLIFERATION, CONGRESSIONAL RESEARCH SERVICE

    Ms. Nikitin. Chairman Salmon, Ranking Member Sires, and 
distinguished members of this subcommittee, I want to thank you 
for the opportunity to testify before you today on the recent 
incident of proliferation from Cuba and the U.N. Sanctions 
Committee's possible response.
    Chairman Salmon, with your permission I'd like to submit my 
statement for the record and summarize it here in a few brief 
remarks.
    Interdiction of banned goods to and from North Korea is a 
binding obligation on all U.N. member states but implementation 
has been uneven. Overall, the risk of interdiction has likely 
raised the cost of illicit transfers for the North Korean 
regime and limited the number of its trading partners, most of 
them outlier states like Cuba.
    However, multiple reported cases of arms interdictions over 
the past 5 years show that North Korea continues to work to 
evade U.N. sanctions.
    Each time there is an interdiction of a banned shipment the 
international community learns more about North Korea's evasion 
techniques.
    Panama's seizure of the North Korean freighter, the Chong 
Chon Gang, and its cache of hidden weapons will provide 
insights into North Korean sanctions evasion. If the U.N. 
confirms the ship was carrying banned weapons, then the seizure 
would be the first case of a North Korean arms shipment to or 
from Cuba being reported to the U.N. Security Council and the 
first time such a case would be reported in the Western 
Hemisphere.
    There is not yet any official confirmation of the exact 
content or the reasons behind the shipment. But even if the 
shipment was sent to North Korea for repair, as the Cuban 
Government claims, it would still be an arms transfer and 
therefore prohibited.
    This shipment raises questions about whether there have 
been other undetected shipments of weapons between Cuba and 
North Korea, as my fellow witnesses have raised.
    All U.N. member states are authorized to interdict 
suspicious shipments to or from North Korea but these measures 
are not always followed.
    Panama did follow these procedures. They stopped a 
suspicious ship for inspection and when it discovered the 
weapons they seized them and promptly invited the U.N. Panel of 
Experts to go there to inspect.
    The Panel of Experts is a group of technical experts as 
part of the U.N. Secretariat that reports to the Security 
Council's Sanctions Committee.
    The U.N. investigation of this case is still ongoing and 
the results of the inspection in Panama have not been made 
public. That visit would have focused on identifying the cargo 
and interviewing the crew.
    Most likely the experts will next seek to identify the 
specific actors that were involved in the transaction including 
seeking information from the Cuban Government, as Mr. Griffiths 
pointed out.
    One possible--excuse me, the Sanctions Committee, which is 
actually the same as the members of the Security Council, will 
then examine the information from the experts and determine 
whether there was a violation and decide what to do.
    One possible response would be to add the names of the 
parties involved to a designation list. This list identifies 
individuals, companies or government entities involved in 
illicit transfers.
    Member states are then expected to deny transactions with 
those on the list. In the past, adding names to this list has 
been highly political and has only been done as part of a new 
Security Council resolution after major breaches such as a 
North Korean nuclear missile test.
    However, the Security Council could decide to amend this 
list at any time. Separately, individual countries may choose 
to add these entities or individuals to their own watch lists.
    Outside the U.N. context, the U.S. has worked to improve 
other countries' interdiction capabilities through the 
Proliferation Security Initiative, or PSI. Panama is a strong 
PSI partner and U.S. and partner countries hold annual training 
exercises under Panamax to prepare for interdiction scenarios 
in the Panama Canal.
    The Government of Panama's successful seizure of the Chong 
Chon Gang's shipment may encourage additional states in Latin 
America and the Caribbean to take similar action.
    Congress may wish to consider whether adequate resources 
are being provided to support PSI and other programs that help 
countries strengthen their export controls, train custom 
officials and improve detection of illicit shipments. This may 
be particularly important for Latin American and Caribbean 
countries who may be transshipment points.
    Congress may also wish to examine whether the Security 
Council should revise the designations list on a more routine 
basis and could also show support for continuing to make 
publicly available the Panel of Experts' findings on these 
illicit transfers.
    Mr. Chairman, this concludes my statement. Thank you again 
for the opportunity to testify and I look forward to the 
subcommittee's questions.
    [The prepared statement of Ms. Nikitin follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Mr. Salmon. Thank you.
    I'd really like to thank our three distinguished witnesses 
for sharing these very thoughtful and provocative ideas.
    The big reason that we convened this hearing is because 
this was a very, very significant incident here in the Western 
Hemisphere and because I don't believe that there's been 
adequate scrutiny with the international media on this subject, 
this issue.
    I've also had conversations with people that are close to 
the process of what's happening with the Sanctions Committee at 
the United Nations and, quite frankly, I'm very sceptical that 
given the fact that the Cuban representatives have been putting 
on what I'd call a charm offensive and acting--I don't know, 
kind of reminds me of ``Leave it to Beaver,'' you know, Eddie 
Haskell. Good morning, Mrs. Cleaver, you know, turning on all 
the--turning on all the charm looking like you're actually 
cooperating when the effort is actually a public relations 
effort to try to deep six everything.
    And I'm really sceptical as to whether the Sanctions 
Committee is going to have the wool pulled over their eyes in 
this instance and the Cuban companies involved are going to get 
just a mere slap on the hands and try to sweep everything under 
the rug. That's why we called this hearing.
    I think we need to call world attention to a very, very 
serious issue. And given that the sanctions contained in Iran--
I'm going to ask my question of Mr. Griffiths--given that the 
sanctions contained in Iran, North Korea, Syria 
Nonproliferation Act already ostensibly apply to Cuba what 
beyond the current range of sanctions that we have in place 
against the Cuban regime could we do and what additional 
legislative measures do you think we should take? Please 
elaborate.
    Mr. Griffiths. Well, thank you, Mr. Chairman.
    I'm not an expert on U.S. legislation but if your end goal 
is to find out more and you fear the wool may be pulled over 
people's eyes, for me the first one very concrete thing would 
be to get full congressional support for making sure that the 
Cuban authorities really extend an invitation to the U.N. panel 
of experts to Cuba and provide the full disclosure I mentioned 
earlier.
    And if they don't, that will prove that they have quite a 
lot to hide, especially regarding the command and control of 
this illicit transfer--who was responsible--because if they 
don't provide full disclosure it will indicate that this 
perhaps went to the very top and, as I said before, to--for 
Congress to really push to make sure that the--that other--that 
the U.S. Government or other U.N. member states really ensure 
that the Cubans cooperate over these earlier voyages as well.
    Right now, the U.N. Panel of Experts has not been invited 
to Cuba and has not been offered full disclosure and this is 
the litmus test, if you will, and if they, you know, they don't 
go down that road of cooperation and share information then I 
would suggest, you know, further investigation is merited to 
determine the extent of these shipments and this trade.
    Mr. Salmon. Thank you.
    I also--I believe it was you, Ms. Werlau, that mentioned 
that the two principal negotiators of this deal--one from Cuba 
and one from Korea--are both--well, one's dead and one's 
missing, and so it's going to be very, very difficult to get at 
the truth.
    Given the fact that these two principals are gone, how 
confident are you that the Sanctions Committee is going to be 
able to get to the bottom of this?
    Ms. Werlau. I'm very confident that Cuba's going to manage 
it and they can. They own the economy. They own the country--
the regime.
    They're going to clean up their act, and I've worked in--at 
the U.N. I've had the opportunity to work in Geneva and New 
York to do advocacy activities.
    The power of the Cuban delegations there, the size, the 
influence is impressive and they have their allies. So I don't 
think we're going to get to the bottom of this, not through 
that channel.
    Mr. Salmon. You think they're pretty good at public 
relations campaigns?
    Ms. Werlau. Cuba has a vast propaganda apparatus that is 
supported not just by a huge public relations empire--media, 
radio stations, publications, news agencies, cultural centers--
they have a very effective, well trained and large intelligence 
service.
    Most of their diplomats are trained intelligence officers. 
Yes, it's very effective and they convince a lot of people who 
are not well informed, who are well meaning, who think that 
they're changing, that don't understand the criminal nature of 
this regime.
    Mr. Salmon. Thank you. I yield back.
    I recognize the ranking member.
    Mr. Sires. You know, I find it very difficult to think that 
the Cuban Government is going to cooperate on any kind of 
committee going to Cuba and trying to investigate whatever 
company because the company is the state, and so is North 
Korea.
    So I just find it very difficult to think that the Cuban 
Government is going to open its doors and say oh, here's what 
happened and tell the world what happened. I just don't see 
that happening.
    I worry about the U.N. because, quite frankly, in the past 
they have disappointed me many times when it comes to issues of 
human rights in Cuba.
    I mean, at one time they had the vice president of the 
Human Rights Commission being from Cuba. I mean, that is the--
that is the most absurd situation you could have when human 
rights in Cuba they are nonexistent and yet at the U.N. you had 
somebody from Cuba being part of the Human Rights Commission.
    That just--you know, I guess the military apparatus of 
these two countries has to be pretty in dire condition to have 
this exchange.
    I just wonder what you think about that. Why at this time 
have such a shipment? I'm curious. If anybody can take a shot 
at that. I know that North Korea has been rattling the saber 
down on South Korea.
    So I was just wondering if it's all related and I'm, quite 
frankly, concerned with the relationships between Cuba, Iran 
and the Western Hemisphere, you know, and the people travelling 
back and forth from Cuba to Iran.
    So can you--can you comment on that? We'll start with you.
    Ms. Nikitin. Thank you very much.
    I don't have an independent source of information, you 
know, that confirms what the motivations were. But in doing a 
survey of the experts' views on this shipment I think we can 
narrow it down to a few other options besides this idea of Cuba 
sending the equipment for repairs, that--you know, that was 
their story.
    They apparently said that they thought that would not 
contradict the U.N. Security Council resolutions. But the most 
recent versions of those resolutions have been strengthened to 
also prohibit that kind of activity.
    So North Korea is also strapped for hard currency and it's 
possible that they--if they were not going to use those systems 
in their own military that they would have a capability to 
refurbish and sell to third parties.
    We just don't know. So that's another possibility that's 
being discussed.
    Mr. Sires. Ms. Werlau.
    Ms. Werlau. Well, as I said in my testimony it doesn't 
surprise me that they would attempt this. There certainly is a 
need in Cuba and they are using the most outrageous schemes to 
get hard currency. Exploiting their own people, sending people 
off to--as migrants to send money back to the regime, exporting 
doctors as temporary workers in schemes of modern slavery--
anything can be expected of Cuba to make a buck.
    There's a report in Uruguay I believe in late July that 
Uruguay imported $1 million in blood from Cuba. Now, I looked 
into this. We're going to publish a report. Turns out Cuba 
massively collects blood from their citizens, telling citizens 
that it's to save lives and they're actually turning people 
into donors, regular donors, saying that they're going to get 
sick if they don't donate blood, and this is to sell it.
    This is a regime that drained the blood of political 
prisoners on their way to execution in the 1960s and sold it to 
Vietnam, for example, including, by the way, an American 
citizen, Robert Fuller.
    His blood was drained on the way to execution just for 
trying to form a resistant movement in Cuba very much like the 
Castro brothers had against the Batista dictatorship. Anything 
is possible from this regime to make a buck.
    Mr. Sires. Thank you.
    Mr. Griffiths, I was just wondering if you really think 
that Cuba is going to cooperate in any way, shape or form with 
this.
    Mr. Griffiths. Well, on a point made by yourself and a 
colleague, I mean, I don't think anyone would deny the fact 
that the U.N. has some limitations, given its membership and 
its mandate.
    But I have to say that the U.N. Panel of Experts on North 
Korea and those members of the Secretariat associated with the 
panel have done a very good job. They're one of the best 
panels.
    You read the latest report by that panel published earlier 
this summer, 2013, and it's really an outstanding piece of 
investigative research.
    They've dug up some very interesting shipments and they've 
identified suspected parties in places as far away as 
Kazakhstan relating to North Korean shipments to Iran. So if 
that team are invited into Cuba and are given access to the 
officials and the documents both on the Chong Chon Gang and 
these earlier ship voyages--North Korean ship voyages, I'm 
quite confident that they would get to the bottom of it.
    The question is will they be invited, and you Members of 
Congress are sceptical that they will be invited. But that 
decision, I guess, hasn't been made yet.
    So in some way maybe this hearing will contribute to an 
understanding at the U.N. and amongst Cubans who are open to 
listening that full access and full disclosure is absolutely 
necessary and if it's not granted that's going to confirm many 
people's worst fears.
    So that's what I can say on that subject. On the other 
issue, the nature of maritime trafficking is such that if the 
arms or drugs are not being shipped directly to a country like 
the United States or France or Spain or Britain but to two 
third countries such as Cuba and North Korea then, you know, 
there are very few open source reports on maritime trafficking 
and there are very few seizures.
    So much goes underneath the radar, so many vessel movements 
that are suspect that are never investigated because the 
International Law of the Sea gives sovereignty of the vessel to 
the flag state which in this case is either North Korea or some 
open registries, flags of convenience that can't exercise their 
sovereignty or are unwilling to exercise their sovereignty, who 
don't have the intelligence or the law enforcement capacities 
to do so.
    So the Chong Chon Gang is probably not an isolated case, in 
my opinion. When you say why now, given general patterns it's 
quite possible there have been other earlier ones. But as we 
make clear in our investigation and has been documented by the 
U.N. Panel of Experts and others, the North Koreans are on the 
lookout for jet fighter spare parts to maintain their fleets. 
So they're always on the lookout for those.
    Mr. Sires. Thank you.
    Mr. Griffiths. So they're in the market.
    Mr. Salmon. Thank you. We are probably going to be called 
for a vote on the floor for two amendments anytime now but we 
have about 10 minutes at least that we can go. I recognize----
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    As we know, the Castro regime is and always has been a 
supporter, a facilitator of terrorism. It has a long history of 
proliferation activities, has actively sought to undermine the 
U.S. and our interests by any means possible.
    For decades the Castros have harbored fugitives from U.S. 
justice including convicted cop killer Joanne Chesimard, as 
Congressman Sires always reminds us, and he has a vast and 
sophisticated intelligence network operating against the United 
States.
    And the Castro brothers also have a well documented deep-
rooted connection to rogue regimes like Iran and North Korea, 
united in a mutual hatred for the United States. As we have 
been talking about, days after the seizure of this North Korean 
flag ship the Cuban authorities released a statement claiming 
that they were obsolete defensive weapons sent to North Korea 
for repair, only to be returned to Cuba.
    But as you've pointed out, it's obvious they were lying to 
the international community to hide the fact that the final 
destination was North Africa in violation of U.N. sanctions.
    The Castro regime is desperate to keep its propaganda 
machine running and its hold on power, and Kim Jong-un and the 
North Korean regime will stop at nothing to continue its 
illicit activities.
    So I ask you what should the U.S. Government be doing to 
support allies in the region like Panama for their security and 
their law enforcement efforts? Also, what penalties do you 
think the international community should impose on Cuba for 
these activities in addition to the bans we have in place?
    And despite these blatant violations of U.N. sanctions this 
administration continues efforts to normalize relations with 
Cuba, moving forward with talks regarding migration and direct 
mail services in the middle of what has been going on.
    What message do you think it sends to our commitment to 
regional security to move ahead with talks with the regime 
despite this blatant violation of international law like the 
one involving the North Korean ship?
    Anyone who'd like to take a stab. Thank you, Ms. Werlau.
    Ms. Werlau. Well, thank you, Congresswoman.
    I'm really not prepared to answer such a big question. All 
I can say is that the people who understand the criminal nature 
of this regime should inform others and it's the responsibility 
of our Government.
    There's more than 50 years--55 years of history there 
including the murder of American citizens, citizens of other 
countries, subversion, terrorism--I think thousands of deaths 
worldwide caused by this regime. And it's important that we 
don't get confused by the message. The Cubans are extremely 
able----
    Ms. Ros-Lehtinen. And I will interrupt you there because 
you bring out an important fact, and then I yield back. We let 
the Castro regime get away with the murder of four innocent 
pilots of Brothers to the Rescue in the shoot down of their two 
aircraft over international air space--three American citizens, 
one U.S. resident.
    And what price did the Castro brothers pay for their crime? 
They signed a bill into law--the administration at the time--
that they have yet to put into action. That was it. That was 
the penalty that they paid.
    So we let that problem go unanswered and now we have 
another horrible example of a violation of international law 
and we're about to let them off the hook yet again. No wonder 
they continue to do their espionage and dangerous activities 
against the U.S. We are willing to look the other way because 
it's just--to act would be inconvenient.
    Ms. Werlau. Yes. May I add, Mr. Chairman, to that? It's 
very frustrating when you're doing human rights documentation 
and getting the reports from Cuba, where they're using surgical 
repression to exterminate the opposition, assaulting women, 
children. I mean, this is a regime that has massacred children 
and----
    Ms. Ros-Lehtinen. The Tugboat--13th of March where they put 
high-pressure water cannons----
    Ms. Werlau. Exactly.
    Ms. Ros-Lehtinen [continuing]. Against people, killing 
dozens of them for the crime of trying to leave the hell hole 
that is the Castro regime's Cuba.
    Ms. Werlau. And that is just one, and what we're getting in 
our news reports are reports about old cars, Mojitos----
    Ms. Ros-Lehtinen. Oh, yes.
    Ms. Werlau [continuing]. And Raul Castro's reforms.
    Ms. Ros-Lehtinen. It's an interesting place.
    Ms. Werlau. Yes. I mean, it's very frustrating----
    Ms. Ros-Lehtinen. And if you're a media outlet and you 
report on the human rights violations instead of reporting on 
the cute 1950s cars then you get your license taken away.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    We have about 7 minutes left on the clock to get back for 
our vote on the floor. But Mr. Rohrabacher is the only one 
that's expressed that he does have a question and so I'm going 
to go ahead and yield to Mr. Rohrabacher.
    Mr. Rohrabacher. One minute. One minute. Thank you very 
much.
    Let me just note that Castro's regime has been a 
disgraceful example of corruption and repression since day one.
    One of the first things he did was, of course, send off aid 
to insurgents in Venezuela to overthrow their elected 
government. He then made his country into a haven for Robert 
Vesco and other major drug dealers.
    He murdered his own people by the hundreds, and I will tell 
you it is a disgrace that the liberals in this country gave him 
such leeway over the years, never calling Castro to task for 
all of this violation of human rights on a mass scale in his 
own country.
    Let me just say that it's a miracle--it's a miracle to me 
that he has lived as long as he has with as number of people 
who have been praying that he was going to die soon over all 
these years.
    But I'm sure that he will be leaving this planet soon and 
there will be a warm place waiting for him right next to Che 
Guevara and none too soon.
    Again, the American people need to see that all along he's 
been conducting himself and involved with illicit activities, 
drug dealing, arms dealing throughout the world and it 
shouldn't surprise us now.
    One last thought, Mr. Chairman, and that is we should be 
insisting that all of the money that he has stored up in 
foreign banks be found out and be given to the people of Cuba 
once this dictator is dead.
    Thank you very much.
    Mr. Salmon. Thank you. I recognize the gentleman from 
American Samoa.
    Mr. Faleomavaega. That's all right, Mr. Chairman. Thank 
you, and as a follow up on my good friend from California's 
line of question I just want to pose this to Dr. Griffiths and 
our two witnesses here.
    I said I'm very concerned of the fact that a noninspection, 
at least the way the Chong Chon Gang was being inspected. I 
believe, Dr. Griffiths, you mentioned that there have been 
three other occasions or three other Korean vessels that have 
gone between Cuba and North Korea.
    Here's the--based on a hypothetical but the fact that the 
noninspection--that these vessels could well have contained 
nuclear weapons, missiles that are capable, they come in right 
in the back yard of the United States, putting an obvious risk 
on the security of this country is what concerns me.
    So we can talk about drugs. We can talk about--but in fact 
that if it was possible for North Korea to do this and three 
other occasions that we have no idea what was being transferred 
on those three earlier vessels, I am just curious.
    Is the threat serious or is it just another one of those 
bypass that we're not really concerned or should be concerned 
about? Dr. Griffiths.
    Mr. Griffiths. There have been at least 12 and possibly 13 
instances of North Korean ships calling at Cuban ports since 
2006 that we are aware of. So the figure is actually 
considerably higher than reported in the media.
    It's quite possible there could have been more because 
these ships are turning off their radar--the AIS, the signal 
that allows us to--our commercial databases to locate ships, 
and signals can also be faked. I mean, it's between 12 and 13. 
We're uncertain about the thirteenth 100 percent.
    We don't know the content of what those ships were carrying 
but some of them really do have what we call voyage anomalies 
where the ship has sailed in a manner which makes no economic 
or commercial sense and it's the typical risk indicator when it 
comes to arms trafficking or indeed narcotics trafficking.
    Mr. Faleomavaega. Thank you, Dr. Griffiths.
    I've got one more quick question to Ms. Werlau. You 
mentioned that you published a paper in 2005 giving some 
estimates of the corporate wealth of the Castro family.
    Can you just give us a one liner? How much is the Castro 
family worth right now in Cuba?
    Ms. Werlau. I think nobody knows that, not even the people 
who manage it. It is so well done the way that it's concealed 
through safe havens, using other people as they present as the 
owners of the bank accounts and corporations. It's impossible 
to tell.
    Mr. Faleomavaega. Thank you, Mr. Chair.
    Mr. Salmon. Thank you.
    All testimony concluded and questions concluded, I'd like 
to adjourn this meeting. But before I do, I just want to say 
that maybe it would be a good idea for the members of this 
subcommittee to pen a letter to Mr. Ban Ki-Moon--Secretary Ban 
Ki-Moon to voice our concerns over this process within the U.N.
    Would that be something we could entertain? All right. 
Well, thank you very much. This subcommittee hearing is now 
adjourned.
    [Whereupon, at 3:12 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


                  Material Submitted for the Hearing Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Material submitted for the record by the Honorable Matt Salmon, a 
  Representative in Congress from the State of Arizona, and chairman, 
                 Subcommittee on the Western Hemisphere

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
